      THE SMALL BUSINESS
ADMINISTRATION’S FISCAL YEAR 2007
 IMPROPER PAYMENT RATE FOR THE
    DISASTER LOAN PROGRAM



              Report Number 9-10
          Date Issued: March 26, 2009




               Prepared by the
         Office of Inspector General
       U.S. Small Business Administration
            U.S. Small Business Administration
            Office Inspector General                        Memorandum
 To:       Steven Smith, Chief, Executive Office of Disaster     Date:   March 26, 2009
           Strategic Planning and Operations

           Herbert L. Mitchell, Associate Administrator
           Office of Disaster Assistance

           Jonathan I. Carver, Acting Chief Financial Officer
 From:     Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Audit of the Small Business Administration’s Fiscal Year 2007 Improper Payment
           Rate for the Disaster Loan Program, Report No. 9-10

           This report summarizes the results of our audit of the Small Business
           Administration’s (SBA) Fiscal Year (FY) 2007 Improper Payment Rate for the
           Disaster Loan Program. The Improper Payments Information Act (IPIA) of 2002
           requires Federal agencies to review their programs and activities annually, identify
           programs that may be susceptible to significant improper payments, estimate
           amounts improperly paid, and report on the amounts of improper payments and
           actions to reduce them.

           Since implementation of the Act, SBA has reported a low improper payment rate
           for the Disaster Loan Program. However, because several recent OIG audits
           uncovered a significant number of improper disaster loan disbursements, we
           initiated the audit to determine whether SBA was properly identifying improper
           disaster loan payments and correctly estimating the improper rate for the program.
           We also planned to evaluate whether SBA had developed a plan to reduce
           improper payments, which is required when an agency is determined to have
           significant improper payments. However, we eliminated this audit objective as
           SBA had not developed a plan because it estimated the level of improper
           payments in the Disaster Loan program to be insignificant.

           To assess the accuracy of SBA’s FY 2007 improper payment review process, we
           compared the Agency’s review methodology with Office of Management and
           Budget (OMB) guidelines contained in Appendix C of OMB Circular A-123.
           These guidelines, which were published in 2006, provide agencies with specific
           instructions for estimating and reporting the rate of improper payments. We also
consulted OMB officials to determine how the improper payment definition
specifically applies to the Disaster Assistance Loan Program to determine whether
SBA had applied the definition correctly, and interviewed Office of Disaster
Assistance (ODA) officials regarding their assessment approach. Our scope and
methodology is provided at Appendix I.

We independently validated (shown at Appendix II) SBA’s estimate of improper
payments by reviewing a statistical sample of 70 disaster loan disbursements made
in FY 2007 to determine whether the disbursements were made in compliance
with key SBA approval and disbursement requirements. Based on our review
results, we developed an estimate of improper payments in the program. In
developing the estimate, we consulted with OMB officials and employed the
services of a statistician.

We conducted the audit between August and December 2008 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND

The IPIA was enacted to enhance the integrity of the government’s payments and
the efficiency of its programs. This legislation, in conjunction with implementing
guidance from OMB, requires executive branch agency heads to review their
programs and activities annually, identify those that may be susceptible to
significant improper payments, estimate amounts improperly paid, and report on
the amounts of improper payments and actions to reduce them.

Significant erroneous payments are defined in IPIA as those exceeding both 2.5
percent of program payments and $10 million. An improper payment includes any
payment that should not have been made (including a payment to an ineligible
recipient), or that was made in an incorrect amount (including overpayments and
underpayments) under statutory, contractual, administrative, or legally applicable
requirements. Under a direct loan program, improper payments may include
disbursements to borrowers or other third-party payments that are based on
incomplete, inaccurate, or fraudulent information. They may also include
duplicate disbursements, disbursements in the incorrect amount, or loan funds
used for purposes other than those allowed by law, program regulations, or agency
policy.

In 2003, OMB issued Memorandum 03-13, Implementation Guidance for the
Improper Payments Information Act of 2002, which provides agencies with
specific instructions for estimating and reporting the rate of improper payments.



                                         2
This guidance, which was revised in 2006 when OMB issued Appendix C of
Circular A-123, requires agencies to:

       • Review all programs and activities and identify those susceptible to
         significant erroneous payments;

       • Obtain a statistically valid estimate of the annual amount of improper
         payments in its programs and activities;

       • Implement a plan to reduce erroneous payments; and

       • Report estimates of the annual amount of improper payments in its
         programs and activities and progress in reducing them.

In 2002, OMB identified SBA’s Disaster Loan Program, which provides direct
loans to help homeowners, renters, businesses, and non-profit organizations return
to pre-disaster condition, as susceptible to improper payments. In FY 2005, SBA
first reported an improper payment rate for the program, which it determined was
insignificant. Since FY 2005, SBA has reported an improper payment rate for the
program ranging from 0.07 to 0.8 percent. Most recently, in the Agency’s 2007
Performance and Activity Report, SBA estimated improper payments to be
$4.5 million, or 0.55 percent of the $819.7 million in loans approved in 2007.

Several recent OIG audit reports of the Disaster Assistance Loan Program have
identified a significant number of improper loan disbursements, causing us to
question whether the rate of improper payments reported for the program is
accurate. For example:

       • In May 2007, we reported that SBA issued $368 million in loan
         disbursements without perfecting liens on property used as collateral, or
         without completing required UCC filings, as required.1

       • In September 2007, we reported that the Agency approved an estimated
         $1.5 billion in disaster loans to applicants who lacked repayment ability. 2

       • In a June 2008 report on the Agency’s compliance with annual credit
         review requirements, we reported that SBA disbursed over $1 billion in
         Gulf Coast Hurricane disaster loan funds at least 1 year after loan approval


1
    OIG Report 07-22, Securing Collateral For Disaster Loan Disbursements, May 9, 2007.
2
    OIG Report No. 07-34, The Quality of Loans Processed Under the Expedited Disaster Loan Program,
    September 28, 2007.


                                                         3
         without verifying whether borrowers had maintained repayment ability and
         creditworthiness. 3

    • In September 2008, we estimated that SBA approved at least $69 million in
      loans to borrowers who lacked repayment ability or creditworthiness. 4

ODA prepares the Agency’s estimate of improper payments for the Disaster
Assistance Loan Program. This estimate is based on an annual Quality Assurance
Review (QAR) of the program, which includes an improper payment component.
The FY 2007 QAR was performed by seven customer service field
representatives, who reviewed a sample of 210 of 18,952 disaster loans that were
approved between August 1, 2006, and July 31, 2007.

RESULTS IN BRIEF

SBA’s estimate for FY 2007 significantly understates the level of improper
payments in the Disaster Assistance Loan Program and is not statistically valid.
SBA reported that improper payments were about $4.5 million, or 0.55 percent of
the $819.7 million in loans approved in FY 2007. In contrast, we estimated the
improper payment rate to be at least 46 percent, or approximately $1.5 billion of
$3.4 billion in loans disbursed in FY 2007. Our estimate, which was developed
with the assistance of a statistician and with consult from OMB, demonstrates a
rate of improper payments that is so significant it merits an improper payment
reduction plan.

We reviewed 70 disbursements and determined that 45 payments were either made
to ineligible borrowers or without documentation that is required for disbursement.
Of the 45 improper disbursements, 19 were made without complete information,
17 went to ineligible applicants, and 9 involved payments to ineligible applicants
without complete information.

ODA, which prepared the estimate for SBA, did not properly estimate the rate of
improper payments due to major sampling design errors, flaws in measurement
methodology, and inadequate reviews of loan files. Sampling design flaws
included using a population of $819.7 million in approved loans, and not the
population of $3.4 billion in disbursed loans, as required. This resulted in ODA
sampling from a smaller universe. Loan approvals also do not serve as a good
sampling population because many loans are cancelled after approval. Finally,
ODA employed attribute sampling, when it should have used variable sampling.

3
  OIG Report 08-10, Annual Credit Reviews For Gulf Coast Hurricane Disaster Loan Disbursements,
  June 17, 2008.
4
  OIG Report 08-19, Early-Defaulted Gulf Coast Hurricane Disaster Loans, September 12, 2008.


                                                      4
ODA also did not properly calculate the error rate in the sample or properly apply
that rate in projecting the total value of improper payments that had been made in
FY 2007. This occurred because ODA did not consult with a statistician, as
required by OMB guidance.

Further, SBA’s improper payment reviews did not adequately detect significant
errors in the loan origination and disbursement process. Our review of 30 of the
210 loans sampled by ODA revealed 9 improper payments, where ODA had only
identified 2. This occurred because the checklist provided reviewers did not
define what constituted an “improper payment” and reviewers did not understand
what payments should be categorized as improper.

Because ODA’s FY 2007 improper payment rate was so significantly understated,
the Agency needs to develop a corrective action plan to reduce improper
payments. Additionally, ODA made similar errors in its FY 2008 improper
payment review process.

We recommended that ODA: (1) revise the sampling design methodology for
estimating improper payments; (2) consult with a statistician to ensure that the
Agency’s sample selection and projection methodology is statistically valid;
(3) provide written instructions to QAR reviewers on what constitutes an improper
payment; (4) implement a corrective action plan to reduce improper payments; and
(5) recalculate the FY 2008 estimate of improper payments, based on audit
findings, and if different from the original estimate of improper payments, provide
the revised estimate to the Acting Chief Financial Officer.

We also recommended that the Acting Chief Financial Officer: (1) report the
improper payment rate calculated by the OIG for FY 2007 to OMB; and (2) ensure
the correct FY 2008 improper payment estimate is reported to OMB.
Management concurred with the recommendations, but did not provide
implementation dates for proposed actions or, in some cases, sufficient detail on
planned actions needed to consider its comments responsive. For example,
management stated it would consult with OMB to revise its sampling
methodology and estimate of improper payments, but did not indicate a time frame
for doing so or describe what changes would be made. Management also did not
identify additional steps it would take to reduce the high level of improper
payments identified by the audit. Therefore, we plan to pursue a management
decision on this issue through the audit resolution process.




                                         5
RESULTS

SBA Significantly Underestimated the FY 2007 Improper Payment Rate

ODA significantly underestimated the amount of improper payments in its
Disaster Assistance Loan Program. While the FY 2007 improper rate was
reported to be 0.55 percent, or approximately $4 million, we estimate it was at
least 46 percent, or approximately $1.5 billion. 5

With the assistance of a statistician, we reviewed a statistical sample of 70 disaster
loan disbursements made in FY 2007, to determine whether loan recipients met
SBA loan eligibility requirements and had submitted all of the required
information for loan disbursement. Under the loan program, disbursements are
incremental based on the borrowers’ needs and ability to produce evidence of
insurance, proper use of prior proceeds, collateral documentation and other
information. Loan officers must ensure that the required documents are secured
before disbursing the loans.

We determined that 45 of the 70 sampled disbursements were improper. OMB
Circular A-123 Appendix C defines an improper payment as including
disbursements that were made based on incomplete information as well as
disbursements to ineligible recipients. Using the OMB criteria, we determined
that 19 disbursements were made without complete information, 17 went to
ineligible applicants, and 9 involved payments to ineligible applicants without
complete information. A listing of the 45 improper payments is provided in
Appendix III.

Disbursements made without complete information lacked either adequate proof
of insurance, demonstration of proper use of prior proceeds, adequate proof of
insurance injections, or complete collateral documentation. The ineligible
applicants either lacked repayment ability or creditworthiness. We discussed these
specific deficiencies with OMB officials, who confirmed that they constituted
improper payments in a direct loan program 6 according to the guidelines in
Appendix C of OMB Circular A-123.

The 19 disbursements that were based on incomplete information lacked evidence
of one or more of the following:

            • Insurance. ODA did not obtain the required evidence of flood and/or
              hazard insurance. When loans are secured, SOP 50 30 requires hazard

5
    This estimate is based on a statistical projection at a 95 percent confidence level.
6
    OMB provided its opinion in question/answer format, in response to a set of specific questions.


                                                             6
          insurance for all insurable collateral, including both the damaged and
          relocation properties. Borrowers must obtain hazard insurance equal to
          at least 80 percent of the insurable value of the property, and proof of
          this insurance must be provided to ODA prior to disbursement of loan
          funds in excess of $10,000. The SOP also requires that borrowers
          located in a flood zone have flood insurance coverage in the amount
          equal to the insurable value of the property or the maximum coverage
          available, whichever is less. Borrowers are required to provide
          evidence to ODA of the purchase of flood insurance prior to any loan
          disbursement.

      • Proper Use of Prior Proceeds. We did not find adequate evidence that
        previous loan proceeds had been properly spent. SOP 50 30 requires
        that, prior to any subsequent disbursement where the aggregate amount
        exceeds $50,000, ODA must obtain evidence that previously disbursed
        funds were properly used in accordance with the loan authorization
        agreement. The evidence may be provided in several forms, including
        joint payee checks, escrow account, progress inspections, lien waivers,
        or progress certifications.

      • Insurance Injections. ODA did not obtain sufficient evidence of prior
        insurance injections. SOP 50 30 requires that all insurance proceeds
        received, along with any other disaster aid to borrowers, are injected
        into the repair or replacement of the damaged real estate prior to
        disbursement of any funds for real estate construction or repair. ODA
        did not obtain proof that all insurance proceeds received by the
        borrowers were properly injected prior to disbursement.

      • Complete Collateral Documentation. ODA made loan disbursements
        to borrowers without obtaining all required collateral documents. In
        each case, ODA did not obtain a required mortgage, security instrument,
        or valid guarantee document. SOP 50 30 allows the Agency to disburse
        the first $10,000 of secured loans without obtaining collateral
        documentation. However, for disbursements up to $50,000, the Agency
        must at least obtain an executed collateral document, along with a check
        from the borrower made out to the title recording company. For
        disbursements over $50,000, ODA must obtain evidence that all
        required collateral documents have been recorded.

We identified 17 disbursements that were made to ineligible applicants. In two of
these cases applicants lacked both repayment ability and creditworthiness.




                                        7
A summary of these disbursements is provided below:

           • Repayment Ability. After performing the applicable cash flow
             computation, we determined that loan disbursements were made to
             borrowers who lacked the ability to repay their loans. The majority of
             these loans were approved under an expedited loan approval process,
             which allowed ODA to approve applicants based on credit score only.
             However, 13 CFR 123.6 requires SBA to have reasonable assurance that
             the borrower can repay the disaster loan out of personal or business cash
             flow. In addition, ODA’s Standard Operating Procedure (SOP) 50 30
             requires that cash flow be the basis for establishing repayment ability
             when approving disaster loans.

                In a previous audit of the expedited loan approval process, we reported
                that the process conflicted with Agency regulations by ignoring cash
                flow. 7 As a result, the Agency approved $1.5 billion in disaster loans to
                applicants who lacked repayment ability. The Agency agreed to
                terminate the program, but never conceded that the program was
                inappropriate or in conflict with Agency regulations. OMB agreed that
                disbursements resulting from expedited loans to borrowers who lacked
                repayment ability constituted improper payments.

           • Creditworthiness. We identified disbursements made to borrowers
             with significant credit deficiencies that were not adequately addressed
             during the loan origination process. 13 CFR 123.6 requires borrowers
             to have satisfactory credit and character, and SOP 50 30 requires
             derogatory credit issues to be addressed prior to loan approval. Loan
             officers are required to obtain a thorough understanding of a borrower’s
             overall credit history before determining whether credit is satisfactory,
             and borrowers with poor credit history should be given every
             opportunity to explain derogatory items before a credit decision is
             reached. If the loan officer does not explain how the borrower has
             overcome all significant derogatory credit issues, the loan cannot be
             approved.

Finally, nine disbursements were made to ineligible applicants without all required
documentation. For example, ODA disbursed a loan to one applicant without
ensuring that the individual had repayment ability, had used insurance proceeds to



7
    OIG Report No. 07-34, Audit of the Quality of Loans Processed Under the Expedited Disaster Loan Program,
    September 28, 2007.




                                                          8
repair damaged property, properly applied prior loan proceeds, and had proof of
hazard insurance.

ODA Used an Invalid Sample Design and Measurement Methodology and
Did Not Adequately Review Sampled Loans

OMB Circular A-123, Appendix C requires agencies to obtain a statistically valid
estimate of the annual amount of improper payments for programs that are most
susceptible to erroneous payments. Agencies must also consult with a statistician
to ensure the validity of their sample design, sample size, and measurement
methodology. In some cases, agencies may need to use more complex sample
designs because their universe contains differing dollar amounts.

The primary reasons that ODA inaccurately estimated its FY 2007 improper
payments were because it:

   • Used an invalid sampling design, which incorrectly defined the population
     and was inappropriate for the population sampled;

   • Employed a statistically invalid measurement methodology to estimate the
     rate of improper payments; and

   • Relied on a loan review process that did not adequately detect errors
     constituting improper payments.

SBA did not consult with a statistician at any point during its improper payment
review process. Had the Agency done so, it may have used a valid sampling
design and measurement methodology. The loan review process was inadequate
because the individuals conducting the reviews lacked an understanding of what
constituted improper payments.

ODA Used an Invalid Sampling Design

SBA incorrectly used a universe of approved loans instead of disbursements to
obtain its statistical sample of the FY 2007 disaster loan activity, contrary to OMB
guidance. OMB Circular A-123, Appendix C states that under a direct loan
program, improper payments include disbursements to borrowers or other third
party payments that are based on incomplete, inaccurate, or fraudulent
information. According to OMB, agencies may use loan approvals as the universe
if it is representative of, or comparable to, the amount of disbursements made that
year. In this case, approvals were not representative of annual disbursements
because in FY 2007 SBA approved $819.7 million in loans, but disbursed $3.4
billion. The $3.4 billion included disbursements made on loans approved in FY

                                         9
2007 as well as disbursements on loans approved in prior years. Another reason
why approvals were not an appropriate universe from which to sample was
because $175.5 million, or 21 percent, of the approved loans were cancelled, and
therefore, never disbursed. Consequently, the total dollar value of loans approved
did not correspond to the actual amount disbursed by the Agency.

Further, disaster loans generally are not fully disbursed upon approval. Agency
policy that was in effect during FY 2007 allowed recipients to receive $10,000 at
the time of loan closing with subsequent disbursements based on borrower needs
and evidence of insurance, proper use of prior proceeds, and other information.
For this reason, some improper payments may only be identified when
determining whether subsequent disbursements are appropriate. By sampling
from a universe of only approved loans, ODA effectively eliminated from
consideration improper payments that were associated with subsequent
disbursements. For example, we identified disbursements that were made on loans
approved prior to FY 2007 that should not have been made because ODA had not
secured proof of insurance, collateral documents, and other information required
for the disbursement. Finally, using approvals as the sampling universe is
inappropriate because many loans are cancelled prior to approval. As previously
discussed, the agency cancelled 21 percent of the loans approved in FY 2007.

Additionally, ODA used a methodology that was inappropriate for the population
it was testing. Specifically, ODA employed attribute sampling, which is a
technique that is used to determine whether a characteristic exists in the
population. For example, this methodology could be used to test whether a
payment was improper, but it is inappropriate for estimating the rate or value of
improper payments. Variable sampling is generally used to predict a value for a
given population. This technique involves sampling a number of payments
computing the value of those payments, and finally deriving the statistical
projection of the value of those payments in the population. Although attribute
sampling is not designed for estimating the rate or value of the population, ODA
used it to derive its estimate of improper payments.

ODA Employed a Statistically Invalid Measurement Methodology

We also determined that ODA did not properly calculate the error rate in the
sample that was used to project the rate of improper payments. One of the
components used in the calculation was the total value of loans in the sample,
which included loans that were cancelled subsequent to approval. As a result,
ODA used a value of $14.9 million when it should have been $13.3 million.
This had the effect of generating a smaller error rate.




                                        10
Further, in making its projections ODA combined data from different time
periods, using one time period for its sample error rate and another for the
population that the rate was applied against. Specifically, the error rate was
obtained from a sample of loans approved between August 1, 2006 and July 31,
2007, but was projected to a universe of loans approved between October 1, 2006
and September 30, 2007. Finally, ODA added a $2,564 improper payment that
was outside of the random sample in making its projection. Consequently, its
projection methodology was statistically invalid.

ODA Relied on a Loan Review Process that Did Not Adequately Detect Errors

A review of 30 of the 210 loans sampled by ODA disclosed that ODA had not
identified all of the improper payments associated with these loans. ODA
identified only 2 improper payments in the 30 loans we sampled, while we
identified a total of 9 (including the 2 identified by ODA), or 30 percent of the
sampled loans.

The additional loans we identified as being improper payments included loans that
went to ineligible borrowers and/or payments that were made without securing the
documentation required for disbursement. For example, one improper payment
went to an individual who was ineligible because he had repayment and credit
issues and had already been partially reimbursed for the damage by FEMA.
Therefore, this payment was also a duplicate benefit. Another payment went to an
individual that was ineligible based on her poor credit history. ODA also did not
timely secure a recorded mortgage for this damaged property.

ODA’s review of the loans was conducted as part of the annual QAR process. As
part of this process reviewers complete a checklist, which includes a question
about whether the loan processing decision resulted in an erroneous payment.
However, the checklist does not define what constitutes an “improper payment” to
ensure that reviewers consider all eligibility issues as well as data completeness.
Consequently, reviewers were completing the checklist without an understanding
of what payments should be categorized as improper. We interviewed five of the
seven individuals who performed the FY 2007 review. None of them were
familiar with the Improper Payments Information Act, knew the definition of an
improper payment according to OMB guidelines, or were aware that the results of
their work would be used to estimate the Agency’s improper payment rate. When
asked to define an improper payment, the reviewers provided varying answers.
Three of the five believed an improper payment occurred when the approved
monthly loan payment was incorrect. The reviewers also indicated no written
guidance had been provided to them on how to conduct the improper payment
component of the QAR.



                                         11
Such guidance would have been particularly helpful in determining repayment
ability as the checklist does not instruct reviewers to recalculate borrower
repayment ability when portions of an individual’s income and/or debt cannot be
confirmed.

Agency management provided us with a summary of the FY 2008 improper
payment review process. Although we did not perform a full analysis of the FY
2008 estimate, we determined that the Agency again sampled loan approvals
instead of disbursements, and used the same error rate calculation and projection
methodology.

CONCLUSION

Because ODA did not employ a statistically valid methodology or sample from the
correct population, its estimate of improper payments is significantly understated,
and a revised estimate should be reported to OMB. The improper rate calculated
by the OIG shows that the level of improper payments in the Disaster Assistance
Loan Program is significant, thus meriting a corrective action plan. Further,
because ODA employed the same methodology in computing its improper
payment estimate for FY 2008, it should recalculate the FY 2008 estimate and
report the revised rate to OMB, if the estimate differs from the original
calculation.

RECOMMENDATIONS

We recommend that the Chief, Executive Office of Disaster Strategic Planning
and Operations direct the Associate Administrator for Disaster Assistance to:

   1. Revise the sampling design methodology for estimating improper payments
      to ensure that the sample is based on disbursements versus loan approvals
      in accordance with OMB guidance, and employs variable sampling
      procedures.

   2. Require that a statistician be consulted when developing the sample error
      rate and projection methodology to ensure that the estimate derived is
      statistically valid, as required by OMB guidance.

   3. Provide written instructions to QAR reviewers on what constitutes an
      improper payment, as defined by OMB Circular A-123, Appendix C, and
      which directs reviewers to recalculate borrower repayment ability when
      income and/or debt cannot be confirmed, or as appropriate.




                                        12
   4. Implement a corrective action plan to reduce improper payments in the
      Disaster Assistance Loan Program.

   5. Recalculate the FY 2008 estimate of improper payments, based on audit
      findings, and if different from the original estimate of improper payments,
      provide the revised estimate to the Acting Chief Financial Officer.

We also recommend that the Acting Chief Financial Officer:

   6. Report the improper rate calculated by the OIG for FY 2007 to OMB; and

   7. Ensure the correct FY 2008 improper payment estimate is reported to
      OMB.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On February 5, 2009, we provided SBA with a draft of the report for comment.
On March 6, 2009, ODA submitted its formal response, along with endorsement
by the Chief of the Executive Office of Disaster Strategic Planning and
Operations, which is contained in its entirety in Appendix IV. On March 17,
2009, OFA submitted its formal response, which is also contained in its entirety in
Appendix IV. ODA generally concurred with the recommendations, but
commented on several issues raised in the report. The CFO’s office concurred
with our recommendations. Management’s comments are summarized below,
with ODA’s specific comments summarized by the headings in its response.

Management Comments

Comment 1 - Sample Design and Measurement Methodology

Management stated that our recommendation that improper payment reviews be
based on loan disbursements instead of loan approvals is reasonable, but is not
absolutely required by OMB guidance. While the OIG consulted with OMB on
this matter, management stated that it has not received official instructions from
OMB directing it to sample from loan disbursements instead of loan approvals.
Further, management believes the OMB guidance is unclear and not absolute.
Management stated that it will revisit the issue with OMB and obtain clear
guidance on how the improper payment definition applies to the Disaster Loan
Program.




                                         13
OIG Response

We believe that ODA already has official guidance from OMB on how its sample
should be pulled. OMB Circular A-123, Appendix C states “that under a direct
loan program, improper payments may include disbursements to borrowers or
other third parties that are based on incomplete, inaccurate, or fraudulent
information.” OMB guidance also allows agencies to use loan approvals as the
universe if it is representative, or comparable to, the amount of disbursements
made on loans approved in the fiscal year as well as on loans made in prior years.
Therefore, while we agree that the OMB guidance is not absolute, we believe it is
clear. In this case, loan approvals was not an appropriate universe from which to
sample as it was not comparable to the amount of FY 2007 disbursements made on
new and previously approved loans. In FY 2007 SBA approved $819.7 million in
loans, but disbursed $3.4 billion on new and prior year loans.

We will provide any requested guidance to ODA management; we simply
followed OMB guidance for our audit, as discussed in our exit briefing. To ensure
that improper payments are accurately determined, we agree with ODA’s decision
to revisit this issue and obtain clear guidance from OMB. Based on the OMB
guidance, ODA should inform our office of its findings and any revised improper
payment rates reported for fiscal years 2007 and 2008.

Comment 2 - Loans Processed Under the Expedited Approval Process

Management stated that we should not have characterized loans disbursed under
the previous expedited process as improper payments since they were made in
compliance with Agency guidelines. Based on guidance in place at that time, the
program authorized loans to applicants based solely on satisfactory credit ratings,
even though individuals may have lacked repayment ability.

OIG Response

We disagree that improper payments associated with the Expedited Disaster Loan
Program should not be considered, simply because ODA guidance established for
the pilot improperly permitted loans to be issued without a repayment analysis.
ODA clearly implemented a policy for the Expedited Disaster Loan pilot program
that was contrary to SBA regulations. 13 CFR § 123.6 requires that in approving
disaster loans, there must be reasonable assurance that borrowers can repay their
loans out of their personal or business cash flow. Therefore, for ODA to insist that
payments made without establishing applicant repayment ability should be
considered proper contradicts Agency regulations on applicant eligibility. As
defined by OMB, loans made to ineligible individuals constitute improper
payments. In recognition that the Expedited Program was issuing loans that


                                         14
should not have been approved, SBA terminated the program and replaced it with
one that required an analysis of applicant repayment ability.

Comment 3 – Disbursements Lacking Proper Documentation

Management claims that the OIG cited deficiencies on payments made without
receipts and proof of insurance, even though these payments were proper.

OIG Response

We question how ODA was able to determine whether payments were properly
made if, as it acknowledges, actions were not properly documented in the loan
files. During the comment period, ODA had the opportunity to, but did not
provide information to support its position that such payment actions were proper.
Given the significant differences between improper payments reported by the
Agency and that identified by the audit, we believe SBA’s estimate must be
corrected and resubmitted to OMB.

Recommendation 1

Management Comments

SBA will consult with OMB to obtain clear official guidance before revising the
sampling design methodology for estimating improper payments.

OIG Response

We believe that pursuing additional guidance from OMB will help the Agency in
revising its sampling methodology for its Disaster Loan Program. However,
because management’s response did not provide specific steps it will take to
implement the recommendation or a target date for implementation, we do not
consider it to be fully responsive.

Recommendation 2

Management Comments

SBA will comply with OMB Circular A-123 and consult with a statistician.

OIG Response

Management’s comments were not fully responsive to the recommendation
because a target date for implementing the proposed action was not provided.


                                        15
Recommendation 3

Management Comments

QAR reviewers will be provided with written instructions that will include a
definition of improper payments and guidance on documenting repayment ability.

OIG Response

The action proposed by management will address the recommendation, but
because management’s response did not provide a target date for completion of
this action, we do not consider it to be fully responsive.

Recommendation 4

Management Comments

Management stated that it has already implemented new training, procedures, and
aggressive quality assurance reviews, and will continue to document steps taken to
eliminate or reduce the exceptions identified in this audit.

OIG Response

Management’s comments were not responsive to the recommendation as no
additional actions were proposed to reduce the significant rate of improper
payments in the Disaster Loan Program. Management’s statement that improperly
documented disbursements and those made under expedited procedures to
individuals who lacked repayment are not improper payments infers that the
Agency plans no further actions on those loans. We remained concerned that if no
action is taken, additional improper payments may be made on those loans, which
have not yet been fully disbursed. For this reason, we will pursue resolution of the
recommendation through the audit resolution process, and will provide a copy of
our report to OMB.

Recommendation 5

Management Comments

SBA will revise the FY 2008 estimate of improper payments after consultation
with OMB to obtain official guidance regarding the sampling design methodology
and criteria for estimating improper payments for the Disaster Loan Program.



                                        16
OIG Response

Management’s comments are not fully responsive to our recommendation as a
target completion date was not provided. We also request that ODA inform our
office of its findings, any program revisions, and the time frame for revising the
FY 2008 estimate.

OIG RECOMMENDATIONS AND THE CFO’S RESPONSE

Recommendation 6

Management Comments

Management stated that after additional guidance is obtained from OMB, it will
issue an appropriate disclosure on previously reported improper payment rates.

OIG Response

Management proposed an alternative action to that recommended. Instead of
reporting the improper payment rate estimated by the OIG, it plans to consult first
with OMB in determining what disclosures should be made. Because it is
uncertain what disclosures SBA plans to make, we do not consider management’s
comments to be responsive at this time, and request that a management decision
on this recommendation be provided after it has consulted with OMB.

Recommendation 7

Management Comments

SBA will report its FY 2009 improper payment rate to OMB in November 2009
using the MAX reporting system. At that time, SBA will include an appropriate
disclosure related to the previously reported FY 2008 improper payment rate.

OIG Response

CFO’s comments are responsive to our recommendation. However, we request
that the CFO’s office provide us with a description of the “MAX reporting
system” and its findings regarding the revised FY 2008 improper payment
estimate for the Disaster Loan Program.




                                         17
ACTIONS REQUIRED

We request that ODA submit written comments identifying (1) the specific actions
it will take to implement recommendations 1 and 5, and (2) the target dates for
completion of actions in response to recommendations 1, 2, 3, and 5. We will
pursue resolution of recommendation 4 through the audit resolution process.

We request that the CFO’s office submit its (1) findings regarding both
recommendations 6 and 7, (2) specific actions planned to implement them, (3)
target dates for completion of these actions, and (4) notification of the FY 2009
rate to OMB in November 2009. We would appreciate receiving your additional
comments within fifteen days of the final report date.

We appreciate the courtesies and cooperation of the Chief, Executive Office of
Disaster Strategic Planning and Operations; Office of Associate Administrator,
Disaster Assistance; Office of the Chief Financial Officer; Disaster Assistance
Processing and Disbursement Center and DCMS Operations Center
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 205- [FOIA ex. 2] or Pamela Steele-Nelson, Director,
Disaster Assistance Group, at (202) 205- [FOIA ex. 2].




                                        18
APPENDIX I. SCOPE AND METHODOLOGY

The original audit objectives were to (1) assess the accuracy of SBA’s FY 2007
estimate of improper payments in the Disaster Assistance Loan Program based on
guidelines in the Improper Payments Information Act, and (2) determine SBA’s
effectiveness in reducing and/or recovering improper payments made to disaster
loan recipients. However, we eliminated this objective as SBA had not developed
a plan because it determined the level of improper payments in the Disaster Loan
Program to be insignificant.

To satisfy the audit objective, we first analyzed the Agency’s sampling procedure,
error rate calculation, and statistical projection methodology. ODA management
indicated that the Agency conducted quality assurance reviews of 210 sample
disaster loans to determine its FY 2007 improper payment rate. To determine the
accuracy of the Agency’s improper payment determinations, we randomly selected
30 of the 210 quality assurance reviews for independent analysis. This analysis
involved testing all 30 loans for significant errors made throughout FY 2007, and
comparing our results to those reported by ODA.

Upon determining that ODA’s sampling and projection methodologies were
flawed, we obtained an independent sample of 70 loan disbursements issued
throughout FY 2007. We tested each sample loan disbursement for significant
errors in the origination and disbursement process to determine the Agency’s true
improper payment rate. The results of our sample reviews were statistically
projected to the universe of all loan disbursements issued in FY 2007.

To test the reliability of the FY 2007 loan disbursement universe data obtained
from SBA’s Disaster Credit Management System (DCMS), we verified that all
disbursement dates fell within the FY 2007 timeframe, and that no disbursements
exceeded the administrative limits. We also randomly selected 20 of the
disbursements to verify that the identical disbursement date and dollar amount
appear in the DCMS electronic loan file.

The audit was conducted between August 2008 and December 2008 in accordance
with Government Auditing Standards as prescribed by the Comptroller General of
the United States, and included such tests considered necessary to provide
reasonable assurance of detecting abuse or illegal acts.




                                       19
APPENDIX II. STATISTICAL SAMPLING METHODOLOGY

From a population universe of 89,173 loan disbursements totaling approximately
$3.4 billion, we randomly selected a statistical sample of 70 disbursements to
estimate our population values. In statistical sampling, the estimate of attributes in
the population universe has a measurable precision or sampling error. The
precision is a measure of the expected difference between the value found in the
sample and the value of the same characteristics that would have been found if a
100 percent review had been completed using the same techniques.

We calculated the population point estimates and the related lower and upper
limits for the selected attributes using the Windows RAT-STATS statistical
software program at a 90 percent confidence level. Projecting our sample results
to the universe of approximately $3.4 billion in loan disbursements, we estimate
ODA’s FY 2007 improper payment rate to be at least 46 percent, or approximately
$1.5 billion. The table below shows our calculations for the FY 2007 improper
payments.

   OIG CALCULATIONS OF ODA’S FY 2007 IMPROPER PAYMENTS
           Occurrence in                                90 Percent Confidence
                                 Population
            Sample of 70
                                   Point
               Loan
                                  Estimate
           Disbursements                           Lower Limit         Upper Limit
Number            45               57,326              47,998             65,817
 Dollar
              $1,679,937       $2,140,071,171     $1,544,261,288      $2,735,881,054
 value




                                         20
              APPENDIX III. EXCEPTION LIST

19 Disbursements Made Without Complete Information

Sample      Application       Improper       Insurance    Use of Prior    Proof of     Collateral    Repayment
                                                                                                                 Credit
  No.          No.            Payment        Injections    Proceeds      Insurance   Documentation     Ability

   8        [FOIA ex. 2]     $50,000.00          X             X
   9        [FOIA ex. 2]     $32,500.00          X
   11       [FOIA ex. 2]    $147,300.00          X             X
   16       [FOIA ex. 2]     $9,136.55                                      X
   20       [FOIA ex. 2]     $36,100.00                        X
   23       [FOIA ex. 2]     $21,100.00          X             X
   24       [FOIA ex. 2]     $18,700.00                        X
   25       [FOIA ex. 2]     $65,000.00                        X            X
   27       [FOIA ex. 2]     $13,900.00                                     X
   29       [FOIA ex. 2]    $120,000.00                                     X
   30       [FOIA ex. 2]     $27,500.00                        X
   33       [FOIA ex. 2]     $5,700.00                                      X
   34       [FOIA ex. 2]     $10,000.00                                     X
   38       [FOIA ex. 2]     $32,100.00          X
   41       [FOIA ex. 2]     $52,500.00          X             X
   44       [FOIA ex. 2]     $25,000.00          X                          X
   48       [FOIA ex. 2]     $15,700.00                                     X
   53       [FOIA ex. 2]     $61,100.00                                     X
   59       [FOIA ex. 2]     $19,400.00                        X            X


17 Disbursements Made to Ineligible Applicants

Sample      Application       Improper       Insurance    Use of Prior    Proof of     Collateral    Repayment
                                                                                                                 Credit
  No.          No.            Payment        Injections    Proceeds      Insurance   Documentation     Ability

   1        [FOIA ex. 2]     $15,000.00                                                                 X          X
   6        [FOIA ex. 2]     $45,000.00                                                                 X
   10       [FOIA ex. 2]     $2,500.00                                                                  X
   13       [FOIA ex. 2]     $30,800.00                                                                 X
   14       [FOIA ex. 2]     $25,000.00                                                                 X
   18       [FOIA ex. 2]     $23,900.00                                                                 X
   22       [FOIA ex. 2]     $18,700.00                                                                 X
   35       [FOIA ex. 2]     $30,000.00                                                                 X
   40       [FOIA ex. 2]     $40,000.00                                                                 X
   45       [FOIA ex. 2]    $142,300.00                                                                 X
   47       [FOIA ex. 2]     $15,000.00                                                                 X
   51       [FOIA ex. 2]     $63,500.00                                                                 X
   61       [FOIA ex. 2]     $10,000.00                                                                 X
   62       [FOIA ex. 2]     $5,000.00                                                                  X          X
   65       [FOIA ex. 2]     $4,300.00                                                                  X
   67       [FOIA ex. 2]     $18,300.00                                                                 X
   70       [FOIA ex. 2]     $10,000.00                                                                 X




                                                                   21
              APPENDIX III. EXCEPTION LIST

9 Disbursements Made to Ineligible Applicants Without Complete Information

Sample      Application      Improper        Insurance      Use of Prior      Proof of     Collateral    Repayment
                                                                                                                     Credit
  No.          No.           Payment         Injections      Proceeds        Insurance   Documentation     Ability

   2        [FOIA ex. 2]     $21,600.00                                                       X             X
   5        [FOIA ex. 2]     $59,900.00          X               X                                          X
   7        [FOIA ex. 2]     $40,000.00          X                                                          X
   15       [FOIA ex. 2]     $40,000.00                                         X             X             X
   28       [FOIA ex. 2]     $70,000.00                                         X                           X
   49       [FOIA ex. 2]     $1,400.00           X                                                          X
   55       [FOIA ex. 2]    $120,100.00          X               X              X                           X
   58       [FOIA ex. 2]     $9,900.00                                          X             X             X
   68       [FOIA ex. 2]     $55,000.00                          X                                          X




                                                                     22
APPENDIX IV. AGENCY RESPONSE - ODA




                      23
APPENDIX IV. AGENCY RESPONSE - ODA




                      24
APPENDIX IV. AGENCY RESPONSE - ODA




                      25
APPENDIX IV. AGENCY RESPONSE - ODA




                      26
APPENDIX IV. AGENCY RESPONSE - ODA




                      27
